No. 19-1136
In the

Supreme Court of the United States
CHONG AND MARILYN YIM, KELLY LYLES,
BETH BYLUND, CNA APARTMENTS, LLC,
AND EILEEN, LLC,
Petitioners,
v.
THE CITY OF SEATTLE,
Respondent.
On Petition for a Writ of Certiorari
to the Supreme Court of Washington

BRIEF OF AMICUS CURIAE RENTAL
HOUSING ASSOCIATION OF WASHINGTON
Philip A. Talmadge
Counsel of Record
Talmadge/Fitzpatrick
2775 Harbor Avenue SW
Third Floor, Suite C
Seattle, WA 98126
(206) 574-6661
phil@tal-fitzlaw.com
Attorneys for Amicus Curiae
Rental Housing Association
of Washington
295474

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
A. INTEREST OF AMICUS CURIAE RHAWA . . . . . 1
B. SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 3
C. ARGUMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
(1) T h e Wa s h i n g t o n S u p r e m e C o u r t
Misunderstood This Court’s Precedents
on Substantive Due Process of Law . . . . . . . . . . .4
(2) This Court Should Grant Review Because
FIT Is Arbitrary, Unduly Oppressive of
Landlords’ Property Rights and Fails
to Advance Its A lleged Reg ulator y
Purpose, and Will Only Encourage Similar
Rights–Violative Ordinances Nationally . . . . . . . 7
D. CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Bayfield Resources Co. v. Western Wash. Growth
Management Hearings Bd.,
157 Wn. App. 1067, 2010 WL 3639906 (2010) . . . . . . . 5
Braxton v. U.S.,
500 U.S. 344, 111 S. Ct. 1854,
114 L. Ed. 2d 385 (1991) . . . . . . . . . . . . . . . . . . . . . . . . 4
City of Chicago v. Morales,
527 U.S. 41, 119 S. Ct. 1849,
144 L. Ed. 2d 67 (1999) . . . . . . . . . . . . . . . . . . . . . . . . 11
Cradduck v. Yakima County,
166 Wn. App. 435, 271 P.3d 289 (2012) . . . . . . . . . . . . 5
Klineburger v. Wash. State Dep’t of Ecology,
4 Wn. App. 2d 1077, 2018 WL 3853574 (2018),
review dismissed, 192 Wn.2d 1018 (2019)  . . . . . . . . . 5
Lingle v. Chevron U.S.A., Inc.,
544 U.S. 528, 125 S. Ct. 2074,
161 L. Ed. 2d 876 (2005) . . . . . . . . . . . . . . . . . . . . . . . . 6
Orion Corp. v. State,
109 Wn.2d 621, 747 P.2d 1062 (1987) . . . . . . . . . . . . . . 5
Presbytery of Seattle v. King County,
114 Wn.2d 320, 787 P.2d 907, cert. denied,
488 U.S. 911 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

iii
Cited Authorities
Page
Sessions v. Dimaya,
__ U.S. __, 138 S. Ct. 1204,
200 L. Ed. 2d 549 (2018) . . . . . . . . . . . . . . . . . . . . . . . 11
Weden v. San Juan County,
135 Wn.2d 678, 958 P.2d 273 (1998) . . . . . . . . . . . . . . . 5
West Main Assocs. v. City of Bellevue,
106 Wn.2d 47, 720 P.2d 782 (1986) . . . . . . . . . . . . . . . . 5
Wolff v. McDonnell,
418 U.S. 539, 94 S. Ct. 2963,
41 L. Ed. 2d 935 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . 6
Other Authorities
SMC § 14.08.050 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Angie Gerrald and Charlotte Thistle, Seattle
keeps making it harder for small landlords
like us, Seattle Times, February 9, 2020 . . . . . . . . . . 7
Daniel Beekman, Judge rejects Seattle’s ‘first-come,
first-served’ rental law as unconstitutional,
Seattle Times, March 28, 2018  . . . . . . . . . . . . . . . . . . 3
Sara Anne Lloyd, Court rules against Seattle’s
first-in-time law, Curbed, March 29, 2018  . . . . . . . . 2
Tom and Curley Show, 40 percent of Seattle
landlords are selling due to new rental rules,
KIRO Radio, July 26, 2018 . . . . . . . . . . . . . . . . . . . . . .7

1
A. INTEREST OF AMICUS CURIAE RHAWA
This memorandum is submitted on behalf of the
Rental Housing Association of Washington (“RHAWA”)
supporting the petitioners’ petition for a writ of certiorari
to the Washington Supreme Court. This memorandum
is filed with the consent of the parties pursuant to Rule
37(2)(a).1
RHAWA is a 5,000 plus member non-profit organization
of rental housing owners (single family homes to multifamily communities) in Washington. Its objectives are to
oversee the general welfare of the rental housing industry,
lead advocacy efforts, provide continuous development
of skills and knowledge, and assist members to provide
appropriate services to the renting public.
RHAWA represents the interests of rental housing
owners to state and local legislative bodies, news media
and the general public. RHAWA is actively involved in
the Washington State Legislature and local governments
on any legislation affecting landlords (as it was on FIT
before the Seattle City Council). Its staff studies the
regular meeting agendas of the local governments, meets
with city and county council members, and reports to its
board about any issues which affect the local community.
It is also involved in educating and encouraging member
involvement on issues affecting the rental housing
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than amici curiae, their members, or their counsel
made a monetary contribution to its preparation or submission.
The parties have consented to the filing of this brief.

2
industry. RHAWA offers educational programs which
enhance rental property owners’ knowledge and provides
different fora for the sharing of pertinent information
in the rental housing industry and social interaction.
RHAWA also offers products and services rental property
owners need to be successful, while encouraging the
highest standards of ethics and integrity for its members.
RHAWA promotes the value of the rental housing industry
to the community and educates renters about the process
of becoming a tenant and being a good tenant.
In this instance, RHAWA actively participated
before the Seattle City Council on the Council Bill that
became FIT, clearly articulating its opposition to the
City’s proposed mandatory FIT law. 2 Second, one of the
plaintiffs in the FIT case was Christopher Benis, the
former RHAWA president. 3 Finally, RHAWA was quoted
in news accounts, welcoming the trial court’s ruling here.4
2. Sean Martin, RHAWA’s lobbyist, told the aide to the
Council Bill’s prime sponsor on July 14, 2016 that RHAWA believed
“that there are many issues in the legislation which do not properly
address real-world tenant screening situations, and other sections
which require clarifying.” Martin then went on to note: “For
rolling applications, we do not believe first-in-time should apply
at all,” noting the practical problems yet again. RHAWA offered
a detailed critique of the legislation.
3. In fact, as a direct result of FIT’s enactment, Mr. Benis
felt so strongly about FIT’s adverse implications and similar antilandlord legislation emanating from the Seattle City Council that
CNA Apartments, LLC, in which his family had an interest, sold
the three apartment buildings it owned in the City.
4. See, e.g., Sara Anne Lloyd, Court rules against Seattle’s
first-in-time law, Curbed, March 29, 2018, https://seattle.curbed.
com/2018/3/29/17177026/seattle-first-in-time-law (“In a statement,

3
RHAWA participated as an amicus curiae before the
Washington Supreme Court.
B. SUMMARY OF ARGUMENT
The City of Seattle (“City”) enacted Ordinance
Number 125114 in 2016 requiring landlords to promulgate
criteria for the rental of residential units and then
mandatorily rent to the first prospective renter who
putatively meets such criteria. The centerpiece of that
ordinance is Seattle Municipal Code (“SMC”) § 14.08.050.5
Various landlords sued the City in the King County
Superior Court contending that this first-in-time
ordinance (“FIT”) was unconstitutional as a violation of
their rights to substantive due process of law and engage
in commercial free speech, and constituted a taking of
the Rental Housing Association of Washington (RHAWA)’s interim
executive director Sean Martin said he’s ‘pleased that the court
recognized the rights of rental housing owners to decide how
to lawfully operate their private property.’”); Daniel Beekman,
Judge rejects Seattle’s ‘first-come, first-served’ rental law as
unconstitutional, Seattle Times, March 28, 2018, https://www.
seattletimes.com/seattle-news/politics/judge-rejects-seattlesfirst-come-first-served-rental-law/ (“Chris Benis, a real-estate
attorney and a plaintiff in the case whose family owns a small
apartment building in Magnolia, said getting to know perspective
tenants is important. ‘The idea of the city preventing us from
making a judgmental call to protect our property and other
tenants is just plain wrong,’ said Benis, who serves as legal counsel
for and is a past president of the Rental Housing Association of
Washington, a landlord group.”).
5. That Ordinance was subsequently amended in 2016 by
Ordinance 125228, delaying its effective date to July 1, 2017.

4
their property. The trial court agreed, invalidating FIT
as unconstitutional under this Court’s well-established
substantive due process principles, but the Washington
Supreme Court then reversed that decision, articulating
an incorrect analysis of this Court’s substantive due
process juris prudence.
RHAWA adopts the statement of the case set forth by
the petitioners in their petition at 3-13.
C. ARGUMENT
Although RHAWA fully agrees with the petitioners’
argument in their petition at 13-21 that FIT destroys a
fundamental aspect of landlords’ property right – the right
to rent to persons entirely of their choosing, so long as the
constitutional rights of tenants are not impaired – RHAWA
focuses its argument to this Court on the substantive due
process issue and how FIT unduly oppresses landlords’
property rights.
(1) The Washington Supreme Court Misunderstood
This Court’s Precedents on Substantive Due
Process of Law
The Washington Supreme Court opinion qualifies
for review by this Court under Rule 10(c). Indeed, this is
precisely the type of case for which certiorari jurisdiction
was envisioned – “to resolve conflicts among the United
States courts of appeals and state courts concerning
the meaning of federal laws.” Braxton v. U.S., 500 U.S.
344, 347, 111 S. Ct. 1854, 114 L. Ed. 2d 385 (1991). Only
this Court can vindicate its substantive due process
jurisprudence.

5
For at least thirty years, as petitioners note in their
petition at 10, the Washington Supreme Court in numerous
cases has required that a regulation must not be “unduly
oppressive” as part of a substantive due process analysis.
E.g., West Main Assocs. v. City of Bellevue, 106 Wn.2d
47, 52, 720 P.2d 782 (1986); Presbytery of Seattle v. King
County, 114 Wn.2d 320, 330, 787 P.2d 907, cert. denied, 488
U.S. 911 (1990). Indeed, in Weden v. San Juan County, 135
Wn.2d 678, 706, 958 P.2d 273 (1998), the Washington court
observed that the purpose of the “unduly oppressive”
prong of the substantive due process test “is to prevent
excessive police power regulations that would require
an individual to ‘shoulder an economic burden, which in
justice and fairness the public should rightfully bear.’”
(quoting and citing, inter alia, Orion Corp. v. State, 109
Wn.2d 621, 648-49, 747 P.2d 1062 (1987).6
But without complying with its own stringent stare
decisis protocol, the Washington Supreme Court swept
away its substantive due process jurisprudence in the
guise of adhering to this Court’s substantive due process
analysis.
But the Washington court completely misperceived
this Court’s substantive due process analysis which,
at its core, requires that the regulation “substantially
6. The “unduly oppressive” prong of the substantive due
process has been applied by all three divisions of the Washington
Court of Appeals in reliance on the former Washington Supreme
Court precedent. See, e.g., Cradduck v. Yakima County, 166 Wn.
App. 435, 443, 271 P.3d 289 (2012); Bayfield Resources Co. v.
Western Wash. Growth Management Hearings Bd., 157 Wn. App.
1067, 2010 WL 3639906 (2010); Klineburger v. Wash. State Dep’t
of Ecology, 4 Wn. App. 2d 1077, 2018 WL 3853574 at *4-5 (2018),
review dismissed, 192 Wn.2d 1018 (2019).

6
advance” the government’s purpose in a regulation,
as the petitioners document in their petition at 22-26.
This Court’s decision in Lingle v. Chevron U.S.A., Inc.,
544 U.S. 528, 542-43, 125 S. Ct. 2074, 161 L. Ed. 2d 876
(2005) did not dispense with an analysis of the impact of
the questioned regulation upon those affected by it. The
adverse impact of a regulation on the property owner
is essential to this Court’s analysis and goes beyond
the notion that there is merely a rational basis for such
regulation. As this Court observed, “a regulation that
fails to serve any legitimate governmental objective may
be so arbitrary or irrational that it runs afoul of the Due
Process Clause.” Id. at 542. Obviously, this analysis does
not focus only on the government’s ostensible objective in
the regulation, but also on how that regulation impacts
the legitimate property interests of the regulated
landowner. How else to assess this Court’s reference
to “arbitrariness” or “irrationality” of the regulation in
Lingle? The Washington court’s decision focused only
on the government’s ostensible regulatory objective,
ignoring the impact of the regulation on the property
owner. That would set the fundamental purpose of the Due
Process Clause on its ear. “The touchstone of due process
is protection of the individual against arbitrary action
of government.” Wolff v. McDonnell, 418 U.S. 539, 558,
94 S. Ct. 2963, 41 L. Ed. 2d 935 (1974) (emphasis added).
Further, as the petitioners articulate in their petition
at 28-29, there is a plain misconception on the part of a
number of state high courts, unlike the Federal circuit
courts, regarding whether this Court’s substantive
due process jurisprudence requires consideration of a
regulation’s impact on the person or entity subject to
it. This case classically fits within the provisions of this
Court’s Rule 10(c) for review, given the state court split

7
of authority and the Washington court’s decision at odds
with this Court’s substantive due process precedents.
(2) This Court Should Grant Review Because
FIT Is Arbitrar y, Unduly Oppressive of
Landlords’ Property Rights and Fails to
Advance Its Alleged Regulatory Purpose, and
Will Only Encourage Similar Rights–Violative
Ordinances Nationally
The Washington Supreme Court’s erroneous analysis
of this Court’s substantive due process law will severely
harm the property rights of landlords nationwide.
RHAWA can readily attest to the profoundly oppressive
nature of Seattle’s FIT ordinance from the on-the-ground
experience of its members.7
FIT was allegedly designed to avert landlords’
discrimination in rentals by eliminating landlord
subjectivity and assuring the application of objective
7. As petitioners have recounted at 35, in addition to severely
curtailing criminal background checks of prospective tenants,
FIT is but one of numerous anti-landlord measures emanating
from Seattle’s City Council. 40% of Seattle’s landlords are selling
their properties due to such onerous regulations, graphically
illustrating the unduly oppressive nature of the City’s antilandlord actions. Tom and Curley Show, 40 percent of Seattle
landlords are selling due to new rental rules, KIRO Radio, July
26, 2018, https://mynorthwest.com/1061466/seattle-landlordsrent-regulations/. See also, Angie Gerrald and Charlotte Thistle,
Seattle keeps making it harder for small landlords like us, Seattle
Times, February 9, 2020, https://www.seattletimes.com/opinion/
seattle-keeps-making-it-harder-for-small-landlords-including-aproposed-ban-on-winter-evictions/ (noting that the City’s actions
prejudice small landlords in particular, making its rental housing
market “more expensive and less flexible”).

8
criteria in property rentals. FIT fails of that goal and
substitutes instead a Rube Goldberg-like regulatory
regime that will subject landlords to possible civil lawsuits,
administrative investigations, and heavy penalties:

9
CP 182-83
FIT’s mandate takes away a landlord’s freedom
of contract, because once the terms of tenancy are
advertised, the terms, acceptable by anyone, are set in
stone and negotiations are impossible without meeting
FIT’s truly arcane procedures.
Landlords need flexibility on the exact terms of a
residential tenancy. Smaller landlords usually negotiate
in a “give and take” way with prospective tenants on a
variety of factors. The first person to apply might want a
6-month lease instead of a year’s lease. They might want
to move in on February 1, not December 1. To obtain a
desirable unit, a prospective client might offer a higher
rental rate or request other concessions in negotiations. A
prospective tenant might come to a landlord saying, “will
you replace the carpet if I pay $50 more per month?” The
landlord may want to reply, “OK, but for that, I am going
to require a 2-year lease.” Under FIT, such negotiations
are forbidden.
Moreover, a landlord can never know all the “deal
killers” that may arise in negotiations. An ordinance
that requires a landlord to specify in advance all criteria
for tenancy and a threshold for each item, takes away all
discretion. A landlord cannot possibly envision all the
circumstances that might arise before a deal is struck
with a potential tenant. For example, an RHAWA landlord
showed an apartment to an applicant who gave her kids
pens. The children, as children do, then promptly started
writing on the walls. Does a landlord have to contemplate,
in advance, that the tenants’ kids will not damage the unit
while showing it or else the landlord cannot use that to

10
disqualify an applicant? If an African-American landlord
sets the criteria for the rental of a unit and a neo-Nazi
skinhead emblazoned with swastika tattoos arrives at the
door, wearing a KKK button, can that landlord use that
fact to say this tenant is not a good fit? And even if criteria
can be developed, what if the criteria are essentially
subjective in nature? An RHAWA landlord has a client who
owns a duplex, lives in one half, and rents out the other.
She has a dog and allows her tenants to have pets. She
has “doggy dates” between her dog and the prospective
tenants’ to see if the pets get along. She does this before
she offers them an application for tenancy. How is she
able to establish a threshold for how satisfactory the dogs’
interaction must be to go to the next step in the process?
Similar issues are legion.
With a mandatory FIT, with attendant civil and
criminal penalties, any error by the landlord only
guarantees litigation, with its attendant aggravation and
expense.
More critically, if the City’s goal is to eliminate
landlord “subjectivity” and “implicit bias” in rentals, as
the City claimed below, in its brief at 6-9, FIT again fails
of that objective. The City claimed below that a landlord
may essentially establish whatever “criteria” she/he might
choose for the rental of a property. But, of course, in the
real world, it is not as simple as the City portrays. In the
examples noted supra, what if the African-American
landlord who wishes to avoid renting to the Neo-Nazi
establishes a criterion that any renter must be “compatible
with the landlord’s social values?” Would that highly
subjective criterion pass muster or does the City have
authority under FIT to invalidate what it deems to be

11
objectionable criteria? In the landlord and dog scenario,
if the landlord established a criterion that the renter’s
dog must be satisfactory to the landlord, would that work?
The City baldly asserted before the Washington Supreme
Court in its brief at 31 that the criteria need not even be
“quantifiable or objective.” If that is true, how can landlord
subjectivity or implicit bias then be eliminated by FIT?
Moreover, the ordinance speaks in terms of a “minimum
threshold” for the criteria, seemingly allowing the City
to decide if a threshold of some sort for the “objective”
criteria is met.
Simply put, the City did not eliminate all landlord
“subjectivity” in the rental of properties by enacting FIT
unless it ultimately decides in its administration of FIT
that certain inherently subjective criteria established
by landlords will be unacceptable to it. FIT is, thus,
arbitrary. 8
FIT is too arbitrary to satisfy the “unduly oppressive/
substantially advances” analysis, given its disruption of a
8. Such a “trust us” argument from the City only implicitly
acknowledges the ultimate vagueness of the FIT law, suggesting
that it may be subject to a due process challenge on such grounds.
“Vague laws invite arbitrary power.” Sessions v. Dimaya, __
U.S. __, 138 S. Ct. 1204, 1223, 200 L. Ed. 2d 549 (2018) (Gorsuch,
J. concurring). A statute can be impermissibly vague for either
of two independent reasons: first, it if fails to provide people of
ordinary intelligence a reasonable opportunity to understand
what it prohibits; or, second, if it authorizes or even encourages
arbitrary and discriminatory enforcement. City of Chicago v.
Morales, 527 U.S. 41, 56, 119 S. Ct. 1849, 144 L. Ed. 2d 67 (1999)
(Prosecution under a loitering ordinance held invalid). Both facets
of the Morales void-for-vagueness analysis are implicated by the
City’s FIT ordinance.

12
landlord’s fundamental attribute of property ownership,
and the heavy potential penalties it imposes. Landlords
will face litigation and serious penalties on the basis of
Seattle’s highly subjective ordinance. If that ordinance
stands, it will become the model for numerous other
jurisdictions in our country.
D. CONCLUSION
This case presents an important one for the clear
articulation of this Court’s substantive due process
principles in the landlord-tenant setting. FIT is an
overreach by the City that deprives landlords of vital
property rights. Review by this Court is merited. Rule
10(c). This Court should grant a writ of certiorari to the
Washington Supreme Courth.
DATED this 26th day of March, 2020.
Respectfully submitted,
Philip A. Talmadge
Counsel of Record
Talmadge/Fitzpatrick
2775 Harbor Avenue SW
Third Floor, Suite C
Seattle, WA 98126
(206) 574-6661
phil@tal-fitzlaw.com
Attorneys for Amicus Curiae
Rental Housing Association
of Washington

